<html>
<title> - BUILDING TRUST AND BATTLING BARRIERS: THE URGENT NEED TO OVERCOME VACCINE HESITANCY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                      BUILDING TRUST AND BATTLING
                      BARRIERS: THE URGENT NEED TO
                       OVERCOME VACCINE HESITANCY

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 1, 2021

                               __________

                           Serial No. 117-34

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available at: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                             
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-369 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                               
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

       Jennifer Gaspar, Select Subcommittee Deputy Staff Director
                      Beth Mueller, Chief Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Mark E. Green, Tennessee
Jamie Raskin, Maryland               Nicole Malliotakis, New York
Raja Krishnamoorthi, Illinois        Mariannette Miller-Meeks, Iowa
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 1, 2021.....................................     1

                               Witnesses


Joshua Garza, Coronavirus Survivor
Oral Statement...................................................     6

Georges Benjamin, M.D., Executive Director, American Public 
  Health Association
Oral Statement...................................................     8

Katy Milkman, Ph.D., Professor of Operations, Information, and 
  Decisions, Wharton School; Professor, Division of Health 
  Policy, Perelman School of Medicine, University of Pennsylvania
Oral Statement...................................................     9

Jerome Adams, M.D., M.P.H., Former Surgeon General of the United 
  States (2017 - 2021)
Oral Statement...................................................    11

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing are listed 
  below.

  * Op-Ed in USA Today by Reps. Foster/Miller-Meeks - Urging 
  Americans to get vaccinated; submitted by Rep. Foster.

  * Letter from AAFP; submitted by Chairman Clyburn.

  * Letter from ACP; submitted by Chairman Clyburn.

  * Letter from American Diabetes Association; submitted by 
  Chairman Clyburn.

  * Letter from American Medical; submitted by Chairman Clyburn.

  * Letter from American Nursing Association; submitted by 
  Chairman Clyburn.

  * Letter from American Nursing Association; submitted by 
  Chairman Clyburn.

  * Letter from CSIS; submitted by Chairman Clyburn.

  * Letter from CSIS; submitted by Chairman Clyburn.

  * Letter from Emory Division of Infections Diseases; submitted 
  by Chairman Clyburn.

  * Letter from GW Milken Institute School of Public Health; 
  submitted by Chairman Clyburn.

  * Letter from IDSA; submitted by Chairman Clyburn.

  * Letter from National Council on Aging; submitted by Chairman 
  Clyburn.

  * Letter from National Health Law Program; submitted by 
  Chairman Clyburn.

  * Letter from NCAPA; submitted by Chairman Clyburn.

  * Letter from Redeeming Babel; submitted by Chairman Clyburn.

  * Letter from Seattle Indian Health Board Abigail Echo-Hawk; 
  submitted by Chairman Clyburn.

  * Letter from University of Nebraska De Alba; submitted by 
  Chairman Clyburn.

  * Letter from Whitman-Walker Health; submitted by Chairman 
  Clyburn.

  * Letter from the Robert Wood Foundation; submitted by Chairman 
  Clyburn.

  * Statement from AHIP; submitted by Chairman Clyburn.

  * Statement from APhA; submitted by Chairman Clyburn.

  * Statement from Chicago Community Trust; submitted by Chairman 
  Clyburn.

  * Testimony from Hispanic Federation; submitted by Chairman 
  Clyburn.

  * Article - USA Today ``He rejected the COVID-19 vaccine and 
  almost died. Now he's preaching itsvirtues to Congress''; 
  submitted by Chairman Clyburn.

  * Article - USA Today ``Getting a COVID-19 Vaccine is a 
  Patriotic Act''; submitted by Chairman Clyburn.

Documents are available at: docs.house.gov.

 
                      BUILDING TRUST AND BATTLING
                      BARRIERS: THE URGENT NEED TO
                       OVERCOME VACCINE HESITANCY

                              ----------                              


                         Thursday, July 1, 2021

                   House of Representatives
                  Committee on Oversight and Reform
              Select Subcommittee on the Coronavirus Crisis
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 9:08 a.m., in 
room 2154, Rayburn House Office Building, Hon. James E. Clyburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Clyburn, Waters, Maloney, 
Velazquez, Foster, Krishnamoorthi, Scalise, and Miller-Meeks.
    Chairman Clyburn. Good morning. The committee will come to 
order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    We're here this morning to discuss an issue of broad, 
bipartisan concern: the critical need to overcome vaccine 
hesitancy so that more Americans get vaccinated against this 
deadly virus.
    I would like to thank Ranking Member Scalise for joining me 
in inviting witnesses to testify at today's hearing. This is 
not a partisan issue. The virus is equally dangerous for 
Democrats and Republicans, and the vaccines are equally safe 
and effective for Democrats and Republicans.
    I would like to also thank today's witnesses for taking the 
time to testify about this critical issue.
    The coronavirus vaccines authorized in the United States 
are proven to be safe and effective, and they have enabled our 
country to make significant progress in containing the virus 
and saving lives.
    We have a graph here that speaks for itself. As more and 
more Americans get vaccinated, fewer and fewer are dying from 
the coronavirus.
    Yet too many Americans remain unprotected against this 
deadly disease because they are hesitant to receive coronavirus 
vaccines. This vaccine hesitancy is allowing the virus to 
continue to spread in areas with large unvaccinated populations 
and increasing the risk that vaccine-resistant variants will 
emerge.
    Polls show that up to one in five American adults say they 
are strongly opposed to getting a coronavirus vaccine. 
Vaccination rates are particularly low in the South and rural 
West. In both regions, less than 40 percent of the total 
population of multiple states is fully vaccinated. In my home 
state of South Carolina, for example, only 39 percent of the 
total population is fully vaccinated.
    Most concerning, we are still losing hundreds of Americans 
to the coronavirus every day. Nearly all of the more than 8,500 
Americans who died from COVID-19 last month were unvaccinated. 
I want to repeat that: Nearly all of the more than 8,500 
Americans who died from COVID-19 last month were unvaccinated. 
If more Americans got their shots, we could reduce coronavirus 
deaths to nearly zero.
    At this critical juncture, we must not lose sight of the 
work that remains to fully stop the spread of the virus in the 
United States. We must undertake dedicated efforts to overcome 
vaccine hesitancy and redouble our outreach and education so 
that we can find a way to convince those who are reluctant of 
the importance of getting vaccinated.
    We must overcome access barriers and address informational 
needs, particularly in communities of color, so that we can 
make it easier for everyone to get vaccinated. We must identify 
innovative ways to increase vaccine uptake.
    The Biden administration has made tremendous progress in 
making coronavirus vaccines available to all eligible 
Americans. They are continuing to work to enhance vaccine 
access for all communities and to promote confidence in the 
vaccines. Their unprecedented efforts have helped to vaccinate 
more than 179 million Americans in record time. But more work 
is needed to prevent backsliding on this hard-fought progress.
    I look forward to hearing from our witnesses about the 
strategies that are effective to overcome vaccine hesitancy and 
increase vaccine uptake and about how we can better inform the 
American public and encourage those who may be hesitant to feel 
confident in getting these shots.
    Once again, thank the members and guests for being here 
today. And I now yield to the ranking member for an opening 
statement.
    Mr. Scalise. Well, thank you, Mr. Chairman. Appreciate you 
holding this hearing.
    Thank our witnesses for coming today.
    As Americans move into the Fourth of July weekend, 
Independence Day takes on special meaning this year. Thanks in 
large part to the vaccines, this is the first holiday weekend 
where virtually all of America is back open, free. Families and 
friends will celebrate together. Grandmothers will visit and 
hug their grandkids. Crowds will gather again for fireworks.
    Every one of us on this subcommittee can tell the American 
people there is total bipartisan agreement on this 
subcommittee: The vaccine ended this pandemic.
    So how did we get to the point where America created the 
fastest vaccine in human history, manufactured, produced, and 
distributed enough vaccine to give a shot to every American who 
wants one?
    The story really begins 30 years ago, when the United 
States Trade Representative began negotiating international 
trade agreements in earnest. On a bipartisan basis, for three 
decades, USTR made protection of U.S. intellectual property a 
cornerstone of those agreements.
    About 25 years ago, Congress decided to make a major push 
on biomedical research. The Republican-controlled Congress 
worked with President Bill Clinton to double the size of the 
National Institutes of Health. During the administration of 
George W. Bush, Congress made yet another major investment in 
NIH, with strong bipartisan support.
    And then came former Energy and Commerce Committee Chairman 
Fred Upton, working with Diana DeGette across party lines. 
Their leadership brought us the 21st Century Cures Act. That 
was one of the most proud moments I worked as majority whip, on 
a piece of legislation that was bipartisan, working with then-
President Obama. We doubled yet again our commitment to the 
NIH. And, just as importantly, we established in that bill the 
Emergency Use Authorization process, which these COVID-19 
vaccines were ultimately approved based on. These are 
provisions, Emergency Use Authorization especially, that helped 
save millions of lives.
    Operation Warp Speed, of course, then built on those 
decades of work. America created the fastest vaccine in human 
history. But all Americans should be assured and confident, the 
vaccines were not rushed. They were built off a platform 
decades in the making, with the best minds in public health and 
private sector coming together to create world-class 
innovations and breakthroughs in a step-by-step fashion.
    If you want to get vaccinated, it is safe, effective, free, 
and available.
    Today, nearly 154 million Americans are fully vaccinated. 
That's about 47 percent of the population. At least 180 million 
people, or 55 percent of the population, have received at least 
one dose. And remember, we're not vaccinating children under 12 
years old. Many Americans, thousands and thousands of 
Americans, who contracted COVID-19 also have the antibodies. 
We're approaching that elusive goal now of effective herd 
immunity.
    Every American, again, who wants to get vaccinated can now 
get vaccinated.
    Scientists have made it clear that we don't need to achieve 
100 percent vaccination for effective herd immunity. So, let's 
give folks who are hesitant the reassurance that they're not 
going to be forced by the Federal Government to do something 
against their will. It's ultimately every American's decision. 
But we want it to be an informed decision.
    First, the vaccine works. Pfizer and Moderna's Phase III 
clinical studies found that their two-dose regimens were 95 and 
94 percent effective, respectively, at blocking COVID-19, while 
Johnson & Johnson's one-shot vaccine was found to be 66 percent 
effective in its studies.
    All three, however, have been found to be extremely 
effective in preventing people from getting severely sick from 
COVID. So, even if someone does get sick from the vaccine, the 
severeness of that sickness is dramatically reduced.
    Since vaccinations began, emergency room visits related to 
the virus have declined 77 percent among older adults. As we 
saw, the highest percentage of COVID deaths in those early 
months were from seniors in nursing homes, especially, and the 
more vulnerable populations--diabetes, hypertension.
    While some breakthrough infections were reported--that is, 
infections that occurred after vaccination--those illnesses 
tended to be milder than infections among unvaccinated people. 
As we know, no vaccine is 100 percent effective. A very small 
percentage of vaccinated individuals will get sick, but that is 
not evidence that the vaccination does not work.
    Second, the vaccination is safe. Over 324 million doses of 
COVID-19 vaccine have been given in the United States from 
December 14, 2020, through June 28 of this year. COVID-19 
vaccines were evaluated in terms of thousands of participants 
in clinical trials. The vaccines met the Food and Drug 
Administration's rigorous scientific standards for safety, 
effectiveness, and manufacturing quality that is needed to 
support Emergency Use Authorization that I talked about 
earlier.
    Many people experience side effects after receiving the 
vaccine. We've seen reports of fatigue, fever, soreness. These 
last for a short period of time. A very small percentage of 
individuals experience an allergic reaction.
    The bottom line is, for the overwhelming majority of 
Americans, the benefits of getting vaccinated clearly outweigh 
the small risks. COVID is a dangerous virus that has killed 
600,000 Americans, but the risk of death from COVID drops 
dramatically for vaccinated individuals.
    Let's all work together to get the facts out to the people 
of this country, particularly populations that have concerns or 
hesitancy. Let's present the evidence but also reassure 
individuals that this decision is their decision. I believe 
that this is the strategy that will ultimately maximize the 
number of Americans who choose to take the vaccine.
    And as I'm closing, Mr. Chairman, I also would be remiss if 
I didn't point out the fact that this committee does need to 
hold a hearing on the origins COVID-19. As we've pointed out 
many times for over a year, this is a virus that killed over 
600,000 people in America, 4 million worldwide. More and more 
evidence is growing in the scientific community that this virus 
originated in the lab in Wuhan, not naturally occurring from 
bat to animal to human.
    And, in fact, earlier this week, the Republicans on the 
committee, after over a year of calling for this hearing, held 
our own hearing. We brought in scientific experts. Every one of 
those scientific experts, Mr. Chairman, reported during their 
testimony that this vaccine, based on the genetic sequencing 
that we now see, started in the Wuhan lab. The evidence is 
overwhelming.
    If China would've been honest with us in those early 
months--and I'm going back to September, at least, of 2019, 
well before the first cases were reported, where now we do know 
anecdotally that people with flu-like symptoms, both in the lab 
and near the lab, were starting to experience those symptoms. 
If China would've been honest back then, instead of waiting 
until March 2020, hundreds of thousands of American lives 
could've been saved and millions of lives globally could have 
been saved if they were forthright with us.
    We still have many questions to ask based on the testimony 
we heard. In many cases, the people who can give those answers 
were invited and refused to come forward. Mr. Chairman, with 
your subpoena authority, you could compel them to come forward.
    So, I will reiterate once again, for the ability for us to 
prevent something like this from happening again, the sooner, 
the better, we need to have a hearing on the origin of COVID-19 
before the full committee.
    I'll be happy to get you a copy of the transcript. In fact, 
C-SPAN carried the hearing that we held, so we can get you all 
of that information. A lot of important scientific information 
was presented. There is more scientific information that needs 
to come forward from people who refused to come forward.
    So, I would urge that we have that hearing, again, and, 
with that, I yield the balance of my time.
    Chairman Clyburn. I thank the gentleman for his opening 
statement, and I look forward--I would like to get a copy of 
that, and you and I might be able to discuss that sometime in 
the not-too-distant future.
    As all of us have just heard, there is a vote on. And we 
are going to work together here to make sure that everybody 
gets a chance to cast their vote and to return. Mr. Foster has 
cast his vote, and he's coming here. He'll be taking my place 
while I go vote. And we have several other members who need to 
go vote as well.
    But before we do that----
    Mr. Scalise.
    [Inaudible] have someone chair during your absence.
    Chairman Clyburn. I'm sure you would, but I think I'd 
better keep this gavel on this side of the aisle. Thank you so 
much, though. Thanks for the offer.
    I'm going to introduce the witnesses so that we won't hold 
them up. And then I think Mr. Foster will preside while the 
three of us go cast our votes so that we won't miss that, OK?
    Let me now introduce our witnesses.
    Joshua Garza is a coronavirus survivor from Sugar Land, 
Texas. After turning down an opportunity to receive a vaccine, 
Mr. Garza contracted a severe coronavirus infection that 
rapidly destroyed his lungs. Mr. Garza was placed on life 
support and then suffered complete lung failure, requiring an 
emergency double lung transplant. After a miraculous recovery, 
Mr. Garza has shared his story publicly. He hopes to save lives 
by inspiring others to learn from his mistake and get 
vaccinated.
    Dr. Georges Benjamin serves as the executive director of 
the American Public Health Association, the Nation's oldest and 
largest organization of public health professionals. He 
previously served as the secretary of health for the state of 
Maryland. He is a board-certified internal medicine--in 
internal medicine, a master of the American College of 
Physicians, a fellow of the National Academy of Public 
Administration, a fellow emeritus of the American College of 
Emergency Physicians, and a member of the National Academy of 
Medicine.
    Welcome back, Dr. Benjamin.
    Dr. Katy Milkman--and, Katy, I hope I'm pronouncing that 
correctly--is a professor of behavioral economics at the 
Wharton School of the University of Pennsylvania. Professor 
Milkman is an award-winning scholar who has applied her 
research to assist states and vaccine providers create 
incentives to increase vaccinations.
    Dr. Jerome Adams served as our Nation's 20th Surgeon 
General. He also served on the White House Coronavirus Task 
Force during the previous administration. Prior to becoming 
United States Surgeon General, Dr. Adams served as health 
commissioner of the state of Indiana and as a vice admiral in 
the United States Public Health Service's Commissioned Corps.
    Welcome, Dr. Adams.
    Sophia Bush is an actress, activist, and entrepreneur. She 
has starred on the drama series ``One Tree Hill'' and ``Chicago 
PD,'' along with numerous films. Ms. Bush's activism includes 
supporting the empowerment of women and girls, fundraising for 
those affected by the Deepwater Horizon oil spill, and serving 
as founder and board member of I Am a Voter, a nonpartisan 
movement to increase voter participation. Most recently, Ms. 
Bush has used her platform to educate others about the 
importance of vaccinations.
    Will the witnesses please rise and raise your right hands?
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    You may be seated.
    Let the record show that the witnesses answered in the 
affirmative.
    Without objection, your written statements will be made 
part of the record.
    Mr. Garza, you are now recognized for your opening 
statement.

        STATEMENT OF JOSHUA GARZA, CORONAVIRUS SURVIVOR

    Mr. Garza. Good morning to everybody. My name is Joshua 
Garza. I'm 43 years old, residing in a suburb of Houston, 
Texas.
    Due to my initial hesitancy regarding the COVID vaccine, I 
passed on a chance to obtain the vaccine in early January. Due 
to underlying health issues that I was aware of and treating, I 
was eligible for the early dose. As a result of not following 
through with the vaccination, I ended up contracting the virus 
in late January and endured a four-month stay in the hospital, 
resulting in a double lung transplant to save my life.
    When approached about the vaccine in early January, I felt 
that I was adhering to all the protocols. I wore the mask when 
out, made sure to be socially distanced, continued washing of 
hands, et cetera. At the time, I strongly felt that I was doing 
everything I needed to protect myself and my family. It's a 
decision that I have to live with for the rest of my life.
    On January 28, I started to feel ill with the usual 
symptoms of the coronavirus. As my condition worsened, my wife 
and I decided to get tested on January 30. Results were sent to 
us the next day. My wife was negative, but I was given the 
dreaded results of being tested positive.
    My condition worsened in the following days to a point 
where I no longer had enough strength to walk. My oxygen levels 
started to drop as a result of the virus attacking my lungs. I 
tried to walk to the front of the house and ended up falling 
due to oxygen levels being so low. My wife called an ambulance 
to take me to the hospital immediately. I was first admitted 
into a hospital on February 2.
    The first hospital I was at ran the usual tests, but my 
condition continued to get worse. After receiving results from 
the testing, doctors were able to determine that my lungs were 
hit the hardest and deteriorating at a rapid rate.
    After a two-week stay and countless tests, we received the 
news we did not want to hear. The doctors had done everything 
they could have done, and my condition was too far gone to fix. 
This hospital had given up on me, and I was not ready to give 
up.
    I reached out to my family and explained the situation and 
said my final goodbyes, as I did not know what was to come or 
how long I had to live. The toughest call I had to make was to 
my 12-year-old son and let him know the situation.
    After the call, I decided that I was not ready to give up. 
My wife and I decided, in order to continue fighting, I would 
have to transfer to a different hospital. This was February 13.
    On February 14, I was able to secure a bed at Houston 
Methodist Hospital Medical Center. After being transferred to 
the Methodist--after being transferred, the Methodist staff 
started testing immediately. The doctors had the same 
conclusion, that my lungs were being destroyed by the 
coronavirus, but they had options for treatment not offered at 
the previous hospital.
    I was moved to the ICU floor and was placed on an ECMO 
system to help my lungs function during this time. The ECMO 
system prolonged my life enough to get evaluated for a lung 
transplant. After evaluation, it was determined that I was a 
candidate for transplant. I was on the ECMO system for almost 
five weeks before being approved for the transplant list.
    Once placed on the list, I waited three weeks in order to 
find a match. Successful transplant surgery was done on April 
13. After surgery, I had to start the rehab process within the 
Methodist network and was released from the hospital on May 27.
    Here is a photo of me on the ECMO system.
    While in the hospital, I was faced with many uncertainties 
that are not controllable due to the situation. You have time 
in the hospital to reflect on life decisions and the outcome of 
each. The amount of pain I endured during this ordeal is 
something I never want to replicate. If I could change my 
decision back in early January to go forward with the 
vaccination, I would.
    We live in a country where we're free to make your own 
decisions. With respect to the coronavirus vaccine, I would ask 
my fellow Americans who are on the fence to think of not only 
yourself but also your family and community to avoid the pain 
and suffering many families have gone through, as many have 
lost loved ones due to COVID-19.
    I have a second chance at life, and I intend to share my 
story as much as I can to help someone save their life.
    Thank you.
    Mr. Foster. [Presiding.] Thank you, Mr. Garza.
    Dr. Benjamin, you are now recognized for your opening 
statement.

   STATEMENT OF GEORGES BENJAMIN, M.D., EXECUTIVE DIRECTOR, 
               AMERICAN PUBLIC HEALTH ASSOCIATION

    Dr. Benjamin. Thank you, Mr. Chairman and members of the 
subcommittee. I want to thank you for the opportunity to 
address you today.
    You know, the SARS-COVID-2, the virus that causes COVID-19, 
has infected over 33 million individuals and taken over 600,000 
lives. I just remind us that it would've been much worse had we 
not really implemented many of the important public health 
measures--masking, handwashing, social distancing, closing 
selected venues.
    But the best tool we have in public health is vaccination. 
It's good that we have a safe and effective vaccine, but, you 
know, having a shot and getting those shots in the arms are 
really two different things.
    And we've done a lot of things to really get to this point. 
You know, people have had--over 323 million doses have been 
delivered. We've really made substantial progress as a Nation. 
But it clearly isn't enough. As Chairman Clyburn pointed out, 
it does save lives.
    But I want to focus my remarks on just the fact that I 
think we need a new strategy. And that is one that builds on 
the successful national strategy that we've certainly had but 
one that is grounded in communities. And I'm talking about one 
that's using old-fashioned, grassroots, shoe-leather public 
health.
    And what often happens is that we get close to these 
benchmarks that we've set for ourselves and then we get 
complacent, and we don't finish the job. And we need to make 
sure that, in this case, we finish the job. And we really need 
to double-down particularly on the vulnerable populations--
communities of color, communities that, quite frankly, have not 
taken the virus as seriously as others.
    So, we're really recommending a four-step approach that has 
been endorsed that we believe is community-driven. And this 
framework has, really, four components.
    The first one is using data to identify those communities 
where there is a lower-than-expected level of vaccination.
    Second, exploring which challenges those communities have 
to coverage--meaning, where are people not confident enough to 
get the vaccine and why? Because it's turned out that there are 
lots of reasons, there's a whole spectrum of reasons why people 
are not willing to get vaccinated, from simply haven't gotten 
around to it, to not having all the questions that they need to 
have answered answered and, therefore, they're not that 
confident.
    And then engaging local community-based stakeholders to 
help design those solutions; and really monitoring what we do; 
and then, in a cycling manner, doing these things all over 
again until we get an adequate number of people vaccinated.
    Over the last month, there has been a national effort to do 
this kind of strategy, and I'm pleased to report that we're 
beginning to see success in that strategy. But we need to 
double--redouble those efforts if we're going to be successful.
    I think we should anticipate that, over the next part of 
this year, we're going to have intermittent outbreaks, and 
we're probably going to have those outbreaks over the next 
several years. The way to kind of conceive that is, it'll be 
like these measles outbreaks that we have. We have a well-
vaccinated population for measles, but we have a population 
where people are not adequately vaccinated, and people get 
infected.
    This is a very, very severe disease, and we need to take it 
very seriously.
    I also want to point out, because this disease is raging in 
many parts of the world and we, quite frankly, have not done 
enough as a planet to get that part of the world vaccinated, we 
are going to have entry of new variants for some time to come.
    I know people are very worried about the Delta variant, and 
I am too, but just let me say, there is very likely to be a 
variant that develops in any of our communities where we're 
under vaccinated. And so, we need to be concerned about any of 
these new variants that occur and watch them very, very 
carefully. And I know the CDC has revved up its surveillance of 
these, but we just can't let our guard down.
    So, I thank you for this, and I look forward to the 
opportunity to testify today, and I look forward to working 
with Congress and the administration and, quite frankly, our 
community in making sure we address this.
    And let me just say one final thing to Mr. Garza.
    Mr. Garza, I'm very glad, as a physician, that you're 
better and want to thank you very much for your advocacy.
    Mr. Foster. Thank you, Dr. Benjamin.
    Dr. Milkman, you're now recognized for your opening 
statement.

  STATEMENT OF KATY MILKMAN, PH.D., PROFESSOR OF OPERATIONS, 
 INFORMATION, AND DECISIONS AT THE WHARTON SCHOOL; PROFESSOR, 
 DIVISION OF HEALTH POLICY AT THE PERELMAN SCHOOL OF MEDICINE, 
                   UNIVERSITY OF PENNSYLVANIA

    Ms. Milkman. Thank you, Mr. Chairman and distinguished 
members of the committee, for inviting me.
    I'll focus my remarks today on how behavioral science 
suggests we can encourage COVID vaccination by changing the 
cost-benefit calculus.
    First, we should be making vaccination radically convenient 
to reduce its hidden costs. People are busy, forgetful, and 
generally far more dissuaded by ``hassle'' factors than we 
appreciate.
    One recommendation is to prearrange vaccination 
appointments for unvaccinated Americans. Research shows that 
prescheduling people for flu shots, while making rescheduling 
easy, leads to a 36-percent increase in vaccination over simply 
telling people how to schedule an appointment.
    If we can't give every unvaccinated American an appointment 
to get a vaccine, we can still repeatedly remind them of how to 
schedule one and convey that a vaccine has been reserved for 
them, as opposed to just made available, which evidence 
suggests will also help.
    In two studies that included over 700,000 Americans and 
tested dozens of different text-reminder messages encouraging 
flu vaccination, my collaborators and I found that reminding 
people a vaccine was reserved or waiting for them boosted 
vaccine take-up in pharmacies and doctors' offices by 7 to 10 
percent.
    These types of reminders were proven to increase COVID 
vaccinations too, and they likely work because having a 
healthcare provider remind you to claim a vaccine that's set 
aside for you communicates the vaccination's recommended, 
suggests it will be easy, and because we strongly dislike 
giving up things that have been allocated to us.
    I also want to discuss financial rewards. For someone who 
isn't rushing to get a vaccine, maybe because they're young and 
don't fear infection or because they're concerned about the 
indirect costs of vaccination, like lost income, incentives 
increase the immediate benefits of getting inoculated. Thirty-
four percent of unvaccinated Americans surveyed this spring 
reported they'd be more likely to get a vaccine if they were 
paid $100 to do so.
    A caveat, though, is that a recent study of unvaccinated 
Medicaid patients found cash payments only actually compelled 
more vaccination among people who already intended to get their 
shot but just hadn't gotten around to it.
    Another caveat to cash payments is that research suggests 
paying people a small amount to get their vaccine could 
unintentionally convey that there's a health risk associated 
with vaccination, even though greater risks accrue to those who 
decline a vaccine. If you have to pay me to do something, I may 
incorrectly infer you're paying to offset a risk you're 
imposing on me.
    In one study, people said they'd be more likely to get 
vaccinated if paid $100, but a payment of $20 would actually 
reduce their interest in getting a vaccine, probably because of 
the incorrect inferences low payments produce about risk.
    Lottery payments for vaccination may help dodge this issue, 
as we infer different motives for guaranteeing a reward versus 
offering up a chance at a jackpot. Moreover, lottery incentives 
are generally cost-effective, in part because we tend to 
overestimate the chances of low-probability events. For 
instance, we act as if a chance that's one in a million of an 
event is more like one-in-a-10,000 chance. So, when we're 
entered in a lottery, we overestimate our chances of winning.
    And data from the benefits of Ohio's Vax-a-Million lottery 
are very promising. The week after that lottery was announced, 
Ohio's 16-and-up vaccination rate jumped 28 percent. And 
estimates suggest that lottery caused an extra 50,000 to 80,000 
Ohio residents to get vaccinated in just the two weeks post-
launch, implying a cost of about $85 per dose.
    In Philadelphia, my collaborators and I recently designed a 
vaccination sweepstakes that uses what's called a regret 
lottery. We're drawing names from a Philadelphia residential 
data base but requiring those we contact to prove they were 
previously vaccinated to accept their winnings. Since all 
residents are entered in the lottery, some unvaccinated 
Philadelphians will be notified that they would've won a cash 
prize if only they'd gotten their vaccine, which is the regret 
component.
    Past research shows that, because people imagine the regret 
they'd feel if they got that call and couldn't cash in, regret 
lotteries can be even more motivating than standard lotteries.
    Our lottery's grand prize is also just $50,000, because we 
doubt a million-dollar jackpot is necessary. And half of the 
winners in each drawing will come from a preannounced ZIP Code 
with a particularly low vaccination rate to target incentives 
more efficiently.
    It's too early to know the program's impact, but we hope it 
could be a model for motivating local vaccination.
    And, finally, I want to discuss non-monetary incentives.
    One survey found that offering Americans the opportunity to 
stop wearing masks after vaccination was highly motivating.
    Giving only vaccinated Americans access to certain 
opportunities will also matter. Over 500 U.S. colleges and 
universities are requiring students to be vaccinated to return 
in the fall, and many employers are setting similar mandates.
    Mandates are understandably controversial, but a recent 
review showed that workplace policies like vaccine mandates 
increased flu vaccination coverage by an average of 25 percent, 
whereas surveyed incentive programs only boosted vaccination 
rates by 9 percent. This means encouraging mandates that allow 
for medical and religious exemptions could increase vaccination 
rates immensely.
    I'll close now but note that I've only provided testimony 
on evidence-based ways to change the costs and benefits 
associated with vaccination. There are many other ways to 
encourage vaccination and reduce health disparities, and I look 
forward to perhaps discussing some later in this session.
    Thank you very much.
    Mr. Foster. Thank you, Dr. Milkman.
    Dr. Adams, you are now recognized for your opening 
statement.

STATEMENT OF JEROME ADAMS, M.D., MPH, FORMER SURGEON GENERAL OF 
                 THE UNITED STATES (2017 2021)

    Dr. Adams. Well, thank you for the opportunity to testify 
at this incredibly important and timely hearing.
    The increasing spread of the Delta variant makes this 
conversation all the more urgent, but the COVID-19 pandemic is 
just the latest example of how our efforts to address overall 
vaccine hesitancy must improve.
    And I want to applaud your use of the phrase ``vaccine 
hesitancy,'' because I never say ``anti-vax.'' There is a 
small, albeit vocal, contingent who are what I call ``vaccine-
resistant,'' but most vaccine-hesitant people simply have 
questions or barriers that, when addressed with compassion, can 
be overcome. Or, as I often say, the more people know we care, 
the more they care what we know.
    Herd immunity is about having enough people with antibodies 
by vaccination and/or prior infection to stop disease spread. 
So, in other words, we could achieve sufficient protection to 
contain COVID outbreaks with less than 70 to 80 percent of all 
people in the U.S. vaccinated. That's good news, because we 
also have to quite simply acknowledge we may never achieve 70-
percent nationwide vaccination rates.
    What we need to focus on, in my opinion, is defining micro-
herds and striving to achieve overall containment through 
vaccination within those smaller groups, because that's really 
where outbreaks start. Your herd could be your church, your 
workplace, your child's sports team, the neighbors you gather 
with, and especially your family. The more these smaller herds 
achieve 70-percent-plus vaccination rates within their groups, 
the less likely the virus and variants will find quarter to 
spread within the larger population.
    And moving on to populations and interventions, the most 
important lesson you should take from this hearing is that we 
absolutely must change our strategy from broad mass-vaccination 
campaigns to more focused education and engagement of smaller 
groups and individuals.
    We're well past the days of vaccine eagerness, where you 
could simply set up at the local sports stadium or fairgrounds 
and expect people to drive miles and wait for hours for a 
vaccine.
    My conversations with community nonprofit public health and 
healthcare groups and organizations have revealed a number of 
strategies to combat vaccine hesitancy, which I'd invite the 
select committee to consider. They're grouped into three main 
``mis''es that I think we need to focus on: misinformation, 
mistrust, and a misperception that access is no longer an 
issue.
    I'd refer you to my written testimony for more details and 
10 key recommendations I've gleaned from my engagement with 
these groups, and which address these ``mis''es. But at a very 
high level, they are:
    One, make the conversation about more than just COVID.
    Two, recognize and address continuing access issues as a 
matter of health equity.
    Three, we've got to get more shots in doctors' offices.
    Four, encourage and fund efforts to better understand 
hesitancy at the ground level and empower people with factual 
information.
    Five, work with states to award micro grants to community 
groups who are doing the work on the ground.
    Six, through the Department of Labor and Small Business 
Administration, fund an effort to have businesses and employers 
understand the benefits of encouraging and offering 
vaccinations.
    Seven, through the Department of Education, support school-
based vaccination clinics for COVID and all other vaccines 
students have fallen behind on, because guess what: Our kids 
are at as much and possibly more risk from other vaccine-
preventable diseases as they are from COVID right now.
    Emphasize--No. 8--the non-health benefits of vaccination. 
Focusing on the social positives of the vaccine to a 
constituency that in many cases fears the social harms of COVID 
more than the potential health harms is more likely to motivate 
behavior change.
    Nine, work with vaccine manufacturers and the FDA to gather 
the data necessary to move toward full approval of vaccines. I 
really, really hope the committee hears me when I'm saying 
this. This is something that people on the ground level are 
continually saying. It took five months to go from Phase III 
trials to EUA. It's taken already longer than that to go from 
EUA to full licensure of these vaccines, and the American 
public wants to know why.
    And, number 10, stop talking about vaccine hesitancy in 
political terms, for goodness' sake, and find different and 
credible spokespersons for different groups. I've never heard a 
single person say, ``I'm not getting vaccinated because I'm a 
Republican.'' I've heard plenty of people say, ``I won't get 
vaccinated because I don't trust the government,'' ``I don't 
trust the healthcare system.'' And when we focus on this 
mistrust, versus focusing on political ideology, we win people 
over.
    In summary, vaccine hesitancy did not manifest itself out 
of nowhere, especially in communities where trust of the 
medical establishment is tenuous at best. Our country needs to 
fundamentally change how it values and invests in caring, 
quality, and expert public health services and communication.
    Because vaccine hesitancy, quite frankly, isn't the root 
problem. It's just the latest symptom, the latest example of 
our collective failures to engage, educate, enable, and empower 
all citizens to be their healthiest selves.
    So, thank you for the opportunity to testify today, and I 
look forward to taking your questions.
    Mr. Foster. Thank you, Dr. Adams.
    Ms. Bush, you are now recognized for your opening 
statement.

   STATEMENT OF SOPHIA BUSH, ACTRESS, ACTIVIST, ENTREPRENEUR

    Ms. Bush. Thank you, Mr. Chairman, Ranking Member Scalise, 
and honorable members of the committee, for the opportunity to 
testify before you today.
    My name is Sophia Bush, and I am a storyteller. As an 
actress, an activist, an entrepreneur, and the host of the 
``Work in Progress'' podcast, I have committed myself to 
learning about people and communities so that I might highlight 
the change-makers working to unite and propel us all toward a 
better future.
    In being afforded the opportunity to tell people's stories, 
I have found both my personal purpose and the passion for what 
lies ahead for us as a Nation. And I feel incredibly privileged 
to have this opportunity to carry their voices into the chamber 
with me today.
    In early 2020, like so many of my fellow citizens, my 
workplace shut down, and shortly thereafter I was locked down 
at home.
    I was terrified of COVID. As a child with severe asthma, I 
suffered bouts of pneumonia that further weakened my 
respiratory system, and, as an adult, what might present as a 
seasonal cold for my coworkers has quickly turned into bouts of 
bronchitis that have sent me to the hospital for emergency 
breathing treatments.
    Even with the unearned privilege of my less at-risk group, 
one with better racial outcomes, and with my financial ability 
to access quality healthcare, I wondered if I would be one of 
the young Americans to suffer severe complications or carry a 
deadly virus home to my family.
    I was inspired by the urgency with which the global health 
community mobilized to sequence the virus, develop a vaccine, 
all thanks to decades of prior research on coronaviruses. 
Researchers around the world collaborated like never before in 
response to the greatest public health threat of our lifetime.
    So, I jumped at my chance to get the vaccine the moment I 
was able to, to protect myself and my parents, my coworkers' 
and friends' families.
    I jumped at the opportunity to take my best friend to get 
her mRNA vaccine. She was five months pregnant at the time and 
has a clotting disorder, and that made her cautious about 
receiving a vaccine. But being acutely aware of what 
contracting COVID could mean for her and her baby, she, too, 
jumped at the chance to protect them both once experts 
confirmed the vaccine's safety for pregnant women.
    I drove us home with tears in my eyes that day. To be 
honest, I also cried the day my parents received their second 
mRNA vaccine, because, for me, vaccines represent love.
    My grandfather was a United States Navy man--I have his 
tags on the desk with me today--and he used to tell stories 
about polio. My mother, too, remembers the relief when her 
family stood in line for that vaccine.
    Vaccines are acts of love made possible by innovation. And 
I believe that, in innovation, we have historically seen the 
best of America. That is where we are exceptional. From 
skyscrapers to airplanes, eventually landing on the Moon, we 
are innovators. And the COVID vaccine, in my opinion, is our 
generation's shot at a Moon landing. This is a step for 
humankind made possible by science.
    Two of the largest groups of unvaccinated people exist in 
communities you've mentioned: communities of color and rural 
populations. There have been concerted disinformation and 
misinformation campaigns to discourage communities, including 
these, from vaccinating themselves against COVID-19.
    We cannot allow people dubbed a threat to this Nation by 
our own intelligence agencies, no matter if they are anonymous 
internet marauders or members of our own governing body, to 
peddle disinformation that keeps us from protecting ourselves 
and others. Those are harmful stories.
    And medicine is not partisan. Science is not partisan. 
Public health must be supported to the best of our Nation's 
ability, all of us, by nonpartisan political will.
    It is on us to remind our loved ones that this pandemic is 
not over. New variants, as you mentioned, including the more 
transmissible Delta variant, are circulating at an alarming 
rate.
    And even before the proliferation of these variants, 
experts were anticipating a fourth wave in areas with low 
vaccination rates. We were warned just this week that we could 
see dense outbreaks in rural areas because not enough of those 
communities are vaccinated.
    And on the subject of community inequity, as the chairman 
mentioned, Black and Brown communities have suffered 
unspeakable losses through this pandemic. And it should come as 
no surprise to us that some people of color who felt abandoned 
by our government in 2020 may have hesitated to believe that 
the government would protect them now against COVID-19.
    We must collectively come to terms with our historical--
with our history of medical trauma and the abuse on Black and 
Brown Americans. And we must provide culturally competent, 
evidence-based messaging that is community-specific if we want 
to prevent more devastation this fall.
    We need to spread the word about where people can find more 
information about the vaccines. My dear friend and science 
communication lead for the COVID Tracking Project, Jessica 
Malaty Rivera, likes to say that science isn't finished until 
it's been communicated with empathy. So, we must work to make 
sure that our policies and the stories we tell about them, the 
ways in which we communicate the science, are trustworthy, 
transparent, and inclusive.
    Public health must be our number-one priority, because, by 
nature, public health requires us to work on behalf of the 
public. Our doctors and researchers do, and each of us can do 
the same by standing up for our communities and getting 
vaccinated to stop the spread.
    My fellow millennials watching and the innovative Gen-Z'ers 
out there, we are looking to you. You can reclaim your academic 
institutions and your precious milestones in person by getting 
vaccinated to protect yourselves and your loved ones so that 
you can write the stories of your futures. I genuinely believe 
that, together, we can do this.
    Thank you for your time.
    Mr. Foster. Thank you, Ms. Bush.
    And thanks to all of our witnesses for your testimony.
    Each member will now have five minutes for questions, and 
so the chair will now recognize himself for five minutes.
    And, first, I have to say, you know, as a scientist, I 
often daydream that we can simply--when there's an issue that 
has to be communicated to the public, you can just say, here 
are the statistics, here are the numbers, here's the cost-
benefit analysis, and then every one of my constituents will 
analyze that, apply the statistics to themselves, and say, OK, 
decision's clear, when do I get vaccinated, for example.
    But it's not like that. You know, this job is to get an 
often-irrational primate to behave rationally. And so, very 
often, you have to inject sort of an equal and opposite 
irrationality into that primate with the sort of passion that 
you described in your testimony. It's important. Or the--what 
Dr. Adams mentioned about regret and even worrying about future 
regret. And so, I think--and it all rings true to you as a 
human being, even once you appreciate the statistics perfectly.
    You know, I hosted a telephone townhall last week where we 
had doctors, public health experts, and we took questions from 
people about their concerns. And I understand--well, first off, 
we have to start with the science, and we have to get the 
science clear, that there is a definite net benefit. And we 
have to be honest with the public that the risks are not zero, 
but the benefits are so much more probable, that you must--you 
must analyze that yourself, and you must really, I think, take 
that rational approach to your life and your family's. But we 
need more than that. You know, we need the sort of passion that 
we saw in the testimoneys here.
    You know, there--well, just in terms of the statistics, you 
know, I think all of us struggle to find, what are the right 
statistics to simply explain this to people? And the one that 
I've found as effective as any is that, if you looked at the 
180,000 Americans who lost their lives from COVID-19 in May 
alone, less than 1 percent of those had been reported as being 
fully vaccinated.
    That means 99 percent of those who died in May had vaccines 
available, by and large, and chose not to get vaccinated and 
paid the ultimate price. Not to mention their families, not to 
mention those who simply became sick and are going to, you 
know, live with, potentially, a life of long COVID. That's 
something that's hard to measure, hard to quantify, but it's 
going to be real, the reality for probably millions and 
millions of Americans.
    So, it's time to get the shot here. You know, vaccines are 
a public health issue, and, as everyone has mentioned, they are 
not and should not be a partisan issue.
    Just this morning, my colleague on this committee, Dr. 
Miller-Meeks, and I published a joint op-ed in USA Today urging 
all Americans to get vaccinated.
    And, without objection, I'd like to ask unanimous consent 
that that op-ed be entered in the official--yes, I presume 
you're not going to be objecting to our op-ed?
    Mrs. Miller-Meeks. No.
    Mr. Foster. All right. Great. Yes, it's always nice to 
stack the committee when there's an answer you want to get.
    Mr. Foster. Now, Dr. Benjamin, in your written testimony, 
you referenced a national poll that found that certain words 
and approaches make people feel safer in getting the vaccine. 
Could you say a little bit about that?
    You know, one of the big irrationalities of human beings is 
that, you know, labeling or a few words just twist our opinions 
beyond all rationality. Can you say a little bit about the 
words that work?
    Dr. Benjamin. Yes. Thank you for that.
    Yes, one of the challenges we have is that words matter. 
And, you know, we try to make sure that you don't stigmatize 
people, as the Surgeon General pointed out, that you--what I do 
is, I ask people what their concerns are and then ask them to--
then I try to address those specific concerns. I try not to 
make an assumption that I know what their concerns are.
    And then using words that they're comfortable with. You 
know, the fact that the vaccine was developed over many years 
is important as part of that communication. Using words when 
you talk about who described--who developed the vaccine. Make 
sure that they understand it was people--scientists, 
researchers, people in their community, so they don't think 
these are some abstract people somewhere that went into a back 
room and made this, you know, ``mad scientist'' type of image 
of how the vaccine got developed, that it was very thoughtful 
people.
    Pointing out, for example, that there are--particularly for 
the African-American community, very, very important--that 
African Americans were part of both the development of the 
vaccine--in fact, leaders in the development of the vaccine, 
that African Americans were involved in the studies themselves 
and, in fact, there was a Herculean effort, because we're not 
really very good at getting diversity in these studies, but, in 
this case, there was good diversity in these studies.
    So, doing things like that to make sure that people 
understand what actually happened. And so, it's not just the 
message, but it's also the messengers----
    Mr. Foster. Yes.
    Dr. Benjamin [continuing]. which is very important.
    Mr. Foster. Thank you.
    And I believe my time has expired, and I will now recognize 
Representative Miller-Meeks for five minutes for her questions.
    Mrs. Miller-Meeks. Thank you, Mr. Chair, Representative 
Foster.
    First, I'd like to thank the chairman and the ranking 
member for holding this important nonpartisan hearing today.
    And I would like to thank our witnesses for their 
testimony, even those that are virtually--or also those that 
are virtually.
    I have been to every county in my district, all 24 counties 
in southeast Iowa, to administer the COVID-19 vaccines. I also 
attended a function on getting young people to run for office 
and administered vaccines there when a pharmacist brought the 
vaccine.
    I've also penned an op-ed on this topic with my colleague, 
Representative Foster, as he indicated, which was published 
today in USA Today on this exact topic. And I've done multiple 
interviews and sent letters encouraging the American people to 
get vaccinated.
    I cannot emphasize how important I think it is to get 
vaccinated so that we can all return to normal.
    To date, three vaccines are approved under the Food and 
Drug Administration Emergency Use Authorization process.
    And, Dr. Adams, you mentioned something which is near and 
dear to my heart and for which I and other members of the 
Doctors Caucus--I'm an M.D. and a former state director of the 
Iowa Department of Public Health--sent to the FDA talking about 
this exact issue.
    Can you explain how the Emergency Use Authorization is 
different from the full biologics license application approval?
    Dr. Adams. Well, thank you very much for that question.
    And it is important for people to understand that, during 
the EUA process, we are--or the FDA is evaluating to determine 
whether or not the risk is less than the benefit of an 
intervention. It hasn't gone through the full licensure 
process. And so, it is a bar that is especially important in 
the midst of a pandemic, because people are dying each and 
every day from COVID-19, but it is certainly not full 
licensure.
    Now, that said, I want to hit a point that Representative 
Scalise mentioned earlier. Three-hundred-plus-million people 
vaccinated so far in this country--or doses delivered in this 
country. This vaccine has, again, been administered to more 
people and we have more safety data on it at this point than 
we've had for any other vaccine in history--in history--at this 
point of administering it to people.
    So, I, as a doctor, feel it's safe. I got vaccinated. My 
15-and 16-year-olds have been vaccinated. But, that said, I 
continue to hear from the public that the lack of an update on 
licensure is something that's hanging over their heads. And 
that's why it's important that the committee address this.
    Mrs. Miller-Meeks. So, you would agree with me and other 
members of the Doctors Caucus when we have asked the FDA to 
look at real-world evidence of the millions of vaccines 
administered both in the United States and globally, that that 
should be enough study data information to give full 
authorization for these vaccines?
    Dr. Adams. Well, absolutely. Dr. Fauci and I worked 
closely, and Dr. Collins from the National Institutes of 
Health, with these organizations throughout the process to get 
to EUA, and we looked at data within the United States and 
outside of the United States. And when you go beyond the United 
States, you're well over 300 million doses that have been 
administered. We have even more safety data.
    I just personally, as a physician and as someone who was 
inside this process, really, myself, don't understand why we 
haven't had more of an update yet.
    Mrs. Miller-Meeks. Thank you for that. And, Dr. Adams, I 
want to say also that I remember meeting you at an ASTO ) 
meeting here, and so it's a pleasure to see you again.
    I'd also like to say that you mentioned herd immunity. And, 
in April, in this committee, I asked Dr. Fauci and Dr. Walensky 
both for herd immunity and the typical average of herd 
immunity, which you have said is around 70 percent.
    Granted, we don't know what it is for this virus. But I 
think it's important--and I'm in an agricultural state. We know 
what herd immunity is. And the goal is to get as many people 
vaccinated as possible, and especially in the risk groups.
    But you also mentioned about side effects. And there are so 
many questions I would love to ask, but I'm going to direct 
this next question to Ms. Bush.
    And, Ms. Bush, your testimony was very compelling, because 
you mentioned the anxiety that you had, given your health risk. 
But we also know that, for children, there are tremendous 
mental health effects associated with not being in a normal 
school environment, coupled with stunted social and emotional 
growth of children 12 and over, and it far outweighs the 
potential effects of a vaccine.
    So, what would you say to young people and to parents of 
children between 12 and 18 as far as getting the vaccine?
    Ms. Bush. Well, I think, again, you know, to the doctor's 
points, this is about how we protect our communities. I might 
have been less at risk than my parents, who are older and both 
immunocompromised, but I still got vaccinated for them and, 
admittedly, was terrified of this.
    And I think the notion that households like some of our 
friends, who have some children over 12 and some children under 
12, could be better protected if kids 12 to 18 were vaccinated, 
the likelihood that as we reach closer and closer to herd 
immunity, we will have less incidents of infection is 
incredibly important.
    And it's our responsibility, in my opinion, to get 
vaccinated for ourselves, our loved ones, and also for those 
who can't, for immunocompromised people, immunocompromised 
children. This is a community action that we can take.
    And, hopefully, the sooner we reach that herd immunity, the 
sooner we cross that threshold, all of these kids will be able 
to get back to the in-person learning that they need for their 
mental health and also for their cognitive development.
    Mrs. Miller-Meeks. Thank you so much.
    And, Mr. Chair, I know that my time has expired, but I just 
wanted to say that I thank the witnesses for talking about 
ending the mask mandate. We asked about this in April, given 
the data we had, and it should've been ended earlier so that 
people could see there was another benefit to getting 
vaccinated other than the lottery system, which I found 
tremendously interesting.
    Thank you, Mr. Chair. I yield my time.
    Chairman Clyburn. [Presiding.] Thank you very, very much.
    The chair has now returned via remotely. But thank all of 
you for your questions.
    I do have questions that I would like to raise. As I 
mentioned earlier, I represent a largely rural district, and I 
am deeply concerned about vaccination rates in our rural 
communities. Although the CDC has warned that rural Americans 
may be at higher risk of severe illness and death from the 
coronavirus, rural communities are falling behind on 
vaccinations, and we are seeing cases rise in rural communities 
with large unvaccinated populations.
    Over the next two weeks, I will be having five townhall 
meetings. Three of them will be in rural communities. And we 
will have the vaccine available at all of those meetings.
    And I would just like to ask Mr. Garza: What would you have 
me tell my constituents who may not be sure that they want to 
get vaccinated?
    Mr. Garza. Yes, sir. I think the most important thing to 
explain is, the side that probably doesn't get shown very much 
is the side of somebody who went through it, like myself.
    You know, you're in the hospital. There are so many 
uncertainties that you don't know about. And I think you have 
to explain the--there are just so many--it's hard to explain, 
being that I was there, and I experienced it, and a lot of 
people haven't experienced it yet. Maybe these people haven't--
they don't know of people that have gone through it. Maybe they 
don't know of somebody who lost a loved one. You know, I knew 
of people who contracted the virus and, you know, they were 
fine within a week or two, and they were back to normal. And I 
felt like that was the norm.
    I got hit very hard, so I went through the experience. You 
know, you sit in a hospital, you see on a daily basis--you see 
the people die on a daily basis. I think that needs to be, you 
know, brought to light. I think it--you know, it's nothing we 
really want to talk about, you know, all the time, but it's the 
truth.
    And there's ways to protect it, and that's by taking the 
vaccination and going forward with it. And, you know, I would 
say, just share the stories as much as you can, because it's 
something that needs to be out there and for people to know 
that there is a consequence to not getting the vaccination, and 
it could happen to you and your family or your community. And 
that's something that we don't want to do, we don't want to see 
that happen, you know, but it's happening.
    And I think people are on the fence either way, so I would 
share the stories as much as you can and explain, you know, the 
situation that--what could happen versus what they see.
    Chairman Clyburn. Well, thank you for that.
    And I want to say to our staffs and our technical people 
here today that I would love very much to get your story. I was 
not here for your testimony; I'm going to listen to it. And I'm 
going to ask the staff to see whether or not we can make your 
testimony and your case available to more people in rural 
communities.
    I can see us getting your story out to various community 
groups, at least throughout my district, and rural churches so 
that more people will know a little bit more about the dangers 
of not adhering to the science when it comes to this 
coronavirus.
    So, I want to thank you so much for being here with us 
today.
    And, Dr. Benjamin, I want to thank you once again. You may 
have said strategies before I came back. Is there anything you 
would add to what Mr. Garza has said to us about getting the 
word out to rural communities?
    Dr. Benjamin. Yes, sir. I think that one of the things you 
want to do is, particularly as you do in your townhalls, you 
know, you want to prep the community. That means going, you 
know--as you know, just like an election cycle, getting people 
going out door-to-door, making sure people are well-educated 
about the townhall, the opportunity to be vaccinated there, and 
trying to get some of their questions answered, having not only 
probably your health department there but also maybe some other 
community messengers.
    And you know the folks we're talking about. You know, I've 
been to your events, as you know. We've known each other for a 
long time. And the kind of community outreach workers that 
you've had for some of the educational sessions that you've 
done at the university that go door-to-door, bang on doors, 
getting those folks out to talk to folks so that, when Mrs. 
Jones comes in, you know, she knows the community messenger 
that is trying to encourage her to get vaccinated so that it's 
not someone that doesn't know her or him.
    And so, I just think that we need to put our arms around 
the community and just, as they say, show them the love when 
they come into those events.
    Making sure that they have adequate transportation, 
providing rides to both your townhall and if the vaccination is 
at a different site, getting their vaccination there and back.
    Recognizing that, yes, people do sometimes not feel well 
for either their first shot, quite often that second one, but 
they'll be fine afterwards.
    And making sure that they can get off work and working with 
the local employers to give them time off. And, of course, I'm 
an advocate for paid time off when they do that.
    Chairman Clyburn. Well, thank you so much for your 
testimony.
    Thank you, Mr. Garza.
    The chair now recognizes Ms. Waters, Chairlady Waters, for 
five minutes.
    Ms. Waters. Thank you very much, Chairman Clyburn.
    And I'd like to thank our witnesses for being here today to 
talk about a subject that's bothering so many of us. We are so 
concerned about our communities and the hesitancy that is 
displayed daily.
    We know all the stories about why people are hesitant, why 
they are suspicious. We know the distrust because of the way 
we've been treated in the medical community with experiments 
and et cetera. We know all of that.
    And we are talking to people and warning them ad nauseam. 
We're saying, you may die if you're infected and you have not 
been vaccinated.
    So, we've done all of that. So now I'm really looking at 
incentives. I'm looking at what incentives work and how we can 
involve maybe the private sector in supporting us with 
incentives to get particularly young people out.
    Now, either of you have any knowledge or experience that 
you can share with us about whether or not incentives work and 
whether or not it is ethical to do incentives?
    First, Dr. Adams, what do you think?
    Dr. Adams. Well, thank you so much. And, actually, I would 
direct the question to Dr. Milkman, because she wrote the book 
on this. She is the expert on this.
    Ms. Waters. Oh, she did?
    Dr. Adams. Yes, she did. And she is the expert on the panel 
on incentives.
    But what I would say to you very quickly is, you need to 
have the right incentive for the right audience. And a blanket 
incentive isn't going to work for every population, because 
it's not going to address the concerns the particular 
populations have. So African Americans may respond to different 
incentives than Hispanics and Latinos, than rural communities.
    But, again, I'll throw it to the expert who is here, Dr. 
Milkman.
    Ms. Milkman. Sure. No, the evidence that incentives work is 
building. We have decades of evidence that they work for 
changing health behaviors in other contexts. Of course, we only 
have a little bit of evidence to date on how well they're 
working for COVID-19 vaccinations.
    But, as I mentioned earlier, the Ohio Vax-a-Million data is 
already looking very promising. There was a 28-percent increase 
in vaccinations in the week following the announcement of that, 
and we believe that, in the two weeks following, there were an 
extra 50,000 to 80,000 vaccinations given.
    Now, you asked a question about particular communities and 
do they work differently in different communities, and I wish 
we knew more about that. One thing that we're pioneering in 
Philadelphia, where I co-designed the Philadelphia Vax 
sweepstakes, is a kind of lottery incentive that's actually 
focused on communities where there are low vaccination rates.
    So, we are running a citywide sweepstakes, but we are 
giving half of the prizes in each round, in each drawing, to a 
particular ZIP Code that's under vaccinated. And I think we 
should be doing more to target those under vaccinated 
communities.
    A nice thing about lottery incentives is that they draw 
tremendous media attention. We think that's part of why they're 
so effective. People get very excited. There's vivid stories, 
which is important. We just talked about the importance of 
stories. You have vivid stories now of winners, happy stories 
that people like to hear about.
    And so, I strongly encourage more communities to think 
about doing localized incentive programs.
    Ms. Waters. Well, thank you. This----
    Dr. Adams. And, ma'am, work sites. Incentives at work sites 
are key, working with businesses. People spend more of their 
waking hours at work than what they do at home.
    Ms. Waters. Uh-huh.
    Dr. Adams. And the people are going back to work.
    Active is a company, an electronics manufacturer, that's 
working with Texas on the border to vaccinate people on both 
sides.
    Again, it's important that--and I encourage the committee 
and I put in my written testimony that you all should work with 
businesses, the Department of Labor, and SBA to encourage and 
empower work sites to offer incentives and onsite vaccinations.
    Ms. Waters. Now, you may be the wrong experts to ask about 
this, but, of course, I was at the BET Awards this past 
weekend, and I was looking at Lil Baby and Rapsody and these 
rappers and how thrilled young people were with them, the young 
people that they have around the stages screaming.
    What about that? Entertainment, athletes, rappers, do you 
think they could be helpful, you know, in helping us to get 
certain groups of people out?
    What do you think, Dr. Benjamin?
    Dr. Benjamin. Absolutely. The right messenger is very 
important.
    And I can tell you what we've learned, you know, from our 
tobacco work, our anti-tobacco work, is that peer-to-peer 
education is very important, so getting young people to talk to 
other young people and getting them well-educated.
    You know, just up the road here in Maryland, my colleagues 
at the University of Maryland have barbers that are talking to 
folks in the community. You know, lots of stuff gets talked 
about in the barber shop while you're in that chair.
    And we did it through a--you know, when I was here in D.C. 
as a health officer, we used lay barbers and others to educate 
the community about a range of health threats. And we believe 
this would be effective.
    A dean at the University of--in New Orleans at Tulane also 
has a barber program, a community program. It turns out it 
works.
    Ms. Waters. Well, thank you so very much. Like I said, I 
know we've all been preaching and talking, so we've got to be 
creative. We've got to come up with some new ways by which to 
do it.
    Thank you very much for being here today. Thank you all.
    Chairman Clyburn. Thank you very much, Chairlady Waters.
    The next--do we have anyone present on the Republican side 
for the next question?
    Ms. Velazquez, you are now recognized for five minutes.
    Ms. Velazquez. Thank you, Mr. Chairman, for holding this 
important hearing, important to the communities that I 
represent, communities of color and underserved communities.
    And I want to thank all the witnesses for being here.
    So, recently, I introduced the Building COVID-19 Vaccine 
Confidence Act of 2021, which directs the CDC to fund grants to 
local health departments and nonprofit organizations to conduct 
outreach to combat vaccine hesitancy, especially in communities 
of color.
    Dr. Benjamin, what are the top three recommendations to 
create a successful, culturally competent, multichannel, 
targeted vaccine campaign?
    Dr. Benjamin. So, I think the first thing is to make sure 
that you engage the community as part of your design. It is 
important that we not go in and think that we know what the 
community needs or what the community thinks. I think that's 
the first thing.
    Second, make sure that the--you know, that we make it 
convenient for people to get their vaccine. And that's 
extremely important. And that----
    Ms. Velazquez. So that means opening up vaccine sites where 
they are.
    Dr. Benjamin. It means the sites where they are, it means 
getting them rides, but also, again, asking them what they 
need.
    Ms. Velazquez. Sure.
    Dr. Benjamin. When we were trying to do lots of education 
around infant mortality, it turns out that pregnant women 
wanted to--needed a place that was safe that they could simply 
do their laundry. We would've never thought about that. But, 
you know, just creating a welcoming environment for people to 
do things that they want to do.
    And I think the third thing, of course, is that, if you're 
going to use incentives, that those incentives are focused. 
Now, I would like to argue that the most important incentive is 
that you don't get real sick and die. But people are not good 
at thinking about risk, but they do respond to targeted 
incentives that they find valuable.
    Ms. Velazquez. Right.
    Dr. Benjamin. And it doesn't have to be a lot of----
    Ms. Velazquez. Thank you.
    And, Dr. Benjamin, reports suggest that there may be a need 
for a booster shot. A New York Times article from May raised 
public skepticism over the COVID-19 vaccine's efficacy, and, 
just a few days ago, The New York Times indicated the vaccine 
could lead to years of protection.
    So how do we educate the public on the facts and address 
these concerns?
    Dr. Benjamin. Yes. One of the challenges is that we're 
doing science in real-time. In the old days, we would all go 
into a back room, we'd spend several years exchanging 
newspapers and articles, and debate amongst ourselves, and then 
we'd come out and tell the public what we thought our consensus 
was. That's now occurring in the public, and so the public is 
hearing the scientific debate.
    I think it's important that, as we communicate that stuff, 
that we tell people that, first of all, we don't know if we 
need boosters yet. We might. There may be certain populations 
that need boosters and not others. It may be that if you got a 
particular vaccine from a different platform, you know, mRNA 
versus the adenovirus ones, et cetera, with different 
efficacies. It may be that if we mix and match these vaccines 
you get better coverage and maybe the booster may be different.
    The answer is, we don't know. We need to tell the public we 
don't know--tell them everything we know but tell them also 
what we don't know. And then, as we know more, we should do 
that.
    By the way, I know that they're working on creating 
boosters, but we're not there yet.
    Let me say one final thing, is that, you know, the variants 
are going to drive that booster discussion probably more than 
anything else.
    Ms. Velazquez. Right. Yes.
    Dr. Benjamin. The story that we saw in the paper the other 
day, I think they were talking about assuming that the strain 
that we are protected from stays stagnant. If we get something 
that is much more virulent and escapes the vaccine, then we 
will clearly need a booster down the line.
    Ms. Velazquez. Thank you.
    And, Dr. Milkman, a recent poll found that more than half 
of unvaccinated Americans preferred to get a vaccine from the 
doctor's office instead of a pharmacy or a vaccinationsite.
    So, what can be done to reach vaccine-hesitant individuals 
who may not have a local doctor, such as individuals 
experiencing homelessness or undocumented individuals?
    Ms. Milkman. Yes. That's a fantastic question. And I think 
one of the things I'm most encouraged by is the fact that there 
are opportunities to do, sort of, door-to-door--and that can 
also be, you know, going to shelters and so on--outreach and 
have physicians who are willing to travel and have those 
conversations in that setting. Even if it's not your physician, 
knowing that it is a doctor you're talking to and having that 
conversation face-to-face can be very important.
    And so, I think we need to be looking to tactics along 
those lines, rather than expecting people to come into 
pharmacies and request vaccines. The more we can go to the 
community and bring the information and expertise to them, the 
better.
    Ms. Velazquez. Thank you, Mr. Chairman. I yield back.
    Chairman Clyburn. Thank you very much for yielding back.
    Now, I am told that Mrs. Maloney is on her way. I don't 
know if she's in the hearing room yet. Is she?
    She is not.
    I will ask the witnesses to bear with us as we observe a 
five-minute recess. We will recess for five minutes to give 
members time to get back from this vote.
    [Recess.]
    Chairman Clyburn. Let me thank the witnesses for their 
indulgence.
    And I understand that Mrs. Maloney has returned and let me 
now recognize Chairlady Carolyn Maloney for five minutes.
    Mrs. Maloney. Thank you, Mr. Chairman. Thank you for your 
leadership.
    I am very concerned about the lagging vaccinations and the 
rates of the vaccinations in younger Americans. According to 
the CDC, just half of Americans between the ages of 18 and 39 
have received one or more doses of the vaccine, compared to 
more than 85 percent of Americans age 65 and older.
    Ms. Bush, I really admire that you have been so outspoken 
on this issue. What message do you have for young Americans who 
have yet to get vaccinated?
    Ms. Bush. Thank you very much, Representative.
    I think it's incredibly important for us to acknowledge the 
facts and then also acknowledge how we feel about them.
    We are seeing that overall COVID cases are dropping, but 
only among the vaccinated. And the rates of infection, 
hospitalization, and death among the unvaccinated remain 
unchanged since January of this year. And we know that more and 
more young people have contracted COVID, and we know that it is 
not just adults. COVID-19 is among the top 10 pediatric killers 
currently.
    So, this does matter for all of us; this does matter for 
young people. And I understand that there is an air of 
invincibility at times, especially because in the initial 
stages of the outbreak of the pandemic we thought that this was 
something that mostly affected older Americans. That's simply 
not true.
    And especially for young people, who have so much of their 
lives ahead of them, who have dreams that they're building on 
and academic careers to pursue, so much of that is magic, 
frankly, because it happens in person, because of who we meet, 
who we fall in love with, where we wind up working, and I don't 
want young people to lose those opportunities.
    And Representative Waters asked how entertainers and 
rappers and activists and athletes can play a part. What I 
would encourage any young person watching to think about today 
is how many of us you know through a screen or through a sport 
who you've seen get vaccinated, and our bodies are literally 
our jobs.
    When I watched Megan Rapinoe and Sue Bird not only go get 
vaccinated in Seattle but volunteer at a vaccine site, I knew 
that that would be meaningful to young people, to see icons, 
professional athletes, whose bodies are their business, whose 
bodies have to run like gladiators, go out and get a vaccine to 
protect themselves and also their families.
    And so, my hope is that, if you're a little less interested 
in politics than most of us in this room, that perhaps the 
people who you look up to, the athletes and the entertainers, 
et cetera, who you know don't really have anything to do 
generally with what's happening in these rooms, believe in 
medical science, believe in the innovation, understand that, as 
we look at a global number of over--3 billion?--of over 3 
billion vaccines that have been administered, we're doing 
great.
    This will save lives, and, in particular, it will allow 
young people to get back to the futures that they're pursuing.
    Dr. Adams. Congresswoman Maloney, if I may jump in really 
quickly. This is Dr. Adams.
    One of the points I made in my written testimony was that 
the Department of Education should support school-based 
vaccination clinics. And that will especially help with our 
sports teams.
    When you look at Jon Rahm--when you look at Chris Paul, who 
missed an NBA playoff game; Jon Rahm, who lost millions of 
dollars because he had to drop out of a golf tournament; when 
you look at the NC State baseball team, there are numerous 
examples of people whose lives were harmed by the social 
consequences of not getting vaccinated as opposed to the health 
consequences.
    And young people, in many cases, aren't going to be scared 
into getting the vaccine by the health harms, but we need to 
help them understand how getting vaccinated will help them get 
their lives back to normal. When they go back to school, some 
of them in just a few weeks, they won't have to quarantine if 
they're exposed to someone. They won't have to wear masks, in 
most cases, if they've been vaccinated. It's important to show 
the benefits that actually matter to that group of people.
    Mrs. Maloney. Reclaiming my time, as I only have a very 
limited amount of time, I wanted to ask a question about my 
home state of New York.
    In my home state of New York, we've offered 50 full-ride 
scholarships to any New York state public college or university 
to people under the age of 18 who get vaccinated. We also 
offered lottery scratch-off tickets with a grand prize of $5 
million to those 18 and older and free baseball tickets, among 
other incentives.
    Dr. Milkman, what strategies should we be using to increase 
vaccination rates among younger Americans and anyone else?
    Dr. Milkman?
    Ms. Milkman. Thank you for the question, Congresswoman.
    I think it's wonderful what New York is doing. I think, 
actually, it's fantastic to see these kinds of incentives that, 
in particular, appeal to young people.
    I think, in addition to college scholarships, we could 
think about, are there ways that we can particularly target 
young people? And Congresswoman Waters earlier mentioned 
celebrities. There are lots of things that we could offer in 
lotteries besides just scholarships that might be even more 
exciting to young Americans.
    And I think there's an opportunity to try to get artists 
engaged, you know, free concert tickets or an opportunity to 
meet your favorite musician for lunch. Those are the kinds of 
things that we could consider also putting on offer in 
lotteries as prizes that might particularly appeal to young 
people. And having the kinds of events that were mentioned in 
Seattle, where sports icons come out and you could go meet them 
and get your vaccine.
    So, I think the more we can engage with artists and 
entertainers and get them involved, the better we'll do.
    Mrs. Maloney. Thank you.
    My time has expired. Thank you.
    Chairman Clyburn. Thank you, Mrs. Maloney.
    I don't know that Congressman Krishnamoorthi has returned. 
I understand he may be on the way, but I don't want to hold our 
witnesses any longer than we need to. So, if the ranking member 
is not here for his closing statement, I'm going to proceed to 
my closing statement. And I will interrupt myself if Mr. 
Krishnamoorthi were to return.
    So, before we close, I would like to enter into the record 
21 letters the select subcommittee has received in recent days 
from organizations representing healthcare providers and 
advocates. I won't read off the names of all 21 organizations, 
but each of these groups has written to emphasize the critical 
importance of overcoming vaccine hesitancy so that we can 
increase vaccinations across the country and contain this 
deadly virus.
    I'm going to ask unanimous consent that these letters be 
entered into the official hearing record. And unless there are 
objections, I'm going to order that they be in.
    Without objection, so ordered.
    Chairman Clyburn. In closing, I want to thank Mr. Garza, 
Dr. Benjamin, Dr. Milkman, Dr. Adams, and Ms. Bush for 
testifying before the select subcommittee today. We appreciate 
your personal stories, your expertise, and your leadership.
    I would also like to thank the ranking member for his 
participation in this effort.
    We need to inform all Americans of the truth: Coronavirus 
vaccines are safe and effective.
    To overcome hesitancy around the country, we must meet the 
skeptical where they are. We must enlist community 
organizations and trusted community messengers to inform the 
groups they represent.
    We must also continue working to break down barriers in 
vulnerable communities, including technology, transportation, 
and language disparities, to reach those who want the vaccine 
but are unable to get it.
    We must also recognize that there are many unvaccinated 
Americans on the fence, not opposed to getting vaccinated but 
not eager enough to have done so already. We can learn from 
those states who have come up with smart ways, such as 
lotteries, free giveaways, sweepstakes, and other incentives, 
to increase uptake among those who need extra encouragement.
    The American public is still at risk. The more that the 
coronavirus continues to circulate, both in the United States 
and globally, the greater the risk that deadlier, more 
contagious, and vaccine-resistant variants could emerge. To 
lower this risk and to end the pandemic once and for all, it is 
crucial to get as many people vaccinated as quickly as 
possible.
    We need to continue developing and implementing innovative 
solutions to encourage everyone to receive their vaccinations. 
I look forward to working with all of you on this panel, with 
my colleagues on both sides of the aisle, and with the Biden 
administration to do so.
    But before I close this hearing, I wish to recognize 
Representative Krishnamoorthi for five minutes.
    Mr. Krishnamoorthi. Thank you, Chair Clyburn. Can you hear 
me?
    Chairman Clyburn. Yes.
    Mr. Krishnamoorthi. I wanted to just ask the panel a couple 
questions. And I'm sorry I'm running back and forth with votes 
and press conferences and so forth.
    But the question is this, which is: Can any of the 
panelists speak to--and I apologize if you covered this before, 
but can any of the panelists speak to what has been effective 
in encouraging people who are hesitant about taking the vaccine 
to do so now?
    And the more specific that you can be in terms of any 
examples of what has worked, I would be most grateful.
    Ms. Milkman. I'd be happy to take this one for a moment and 
then turn it over to others.
    Some of the key things that we've seen that do work are 
lotteries. Lotteries are working. There was a 28-percent 
increase in vaccination among those 16 and up in Ohio after the 
announcement of the Ohio Vax-a-Million and an estimated 50,000 
to 80,000 additional doses delivered in the two weeks after 
that lottery was announced.
    We know that people also respond to large incentives, 
payments on an order of magnitude of $100, though there is some 
risk that small incentives can actually backfire by signaling, 
``We have to pay you; it must be risky to take this vaccine,'' 
which is inaccurate, but an inference people make. So large 
incentives work.
    And people are also very motivated by reductions in 
restrictions, like not having to wear masks anymore. That means 
a lot to a lot of people.
    Another thing that works very well are mandates, even 
though they're unpopular for good reason. However, we know that 
when there is a mandate it's highly effective. And 500 colleges 
and universities are mandating that people be vaccinated when 
they come back to campus in the fall. That's going to make a 
huge difference. And larger numbers would help, especially 
given that we know there are low vaccination rates among the 
young. And so that's another strategy we could think about 
encouraging.
    And employers can also impose mandates. And I think we 
should be looking at whether or not there are ways to encourage 
more employers to do that, given the huge impact it has and the 
externalities of vaccination on your community.
    Mr. Krishnamoorthi. Are there any particular messages, 
especially with young people, that seem to work better than 
others in getting them to get vaccinated, obviously aside from 
saying that you have to do it, from a mandatory vaccination 
standpoint?
    Ms. Milkman. It's important to hear from people who they 
trust and who they respect and admire. There was a discussion 
about, you know, musicians, athletes, the kinds of people we 
look up to. Young people respond more to that than to hearing 
from a politician.
    Everyone responds well to hearing from a trusted medical 
source. So, if young people have a doctor, they're used to 
having conversations with, having those in-depth conversations 
can be really powerful, as well as just seeing role models.
    But social norms spread, meaning I see my friends doing 
something and that makes me much more attracted to doing it. 
So, the more we can also convey to young people how many other 
young people are making the choice to get vaccinated, make that 
really visible on social media, that's going to help as well, 
because it will propel more and more. There's a snowball effect 
when we see someone else who looks like us doing the thing that 
we are contemplating doing.
    Mr. Krishnamoorthi. Would something as simple as having 
people who have been vaccinated get online and basically share 
that they were vaccinated, would that make a difference?
    Ms. Milkman. It should. We know that it makes a difference 
in other contexts. When young people see on Facebook a number 
of their friends have voted, for instance, it increases their 
likelihood of voting. And the closer the social connection, the 
bigger the impact.
    So, the more visible we can make it when young people vote 
and the more, we can ask them to tell their friends, 
communicate to their friends, send a message to their friends, 
the better.
    Mr. Krishnamoorthi. And has there been something that has 
not been done in that vein that should be done? I would imagine 
that there's a lot of social media campaigns that involve what 
I just referred to, but perhaps I'm wrong about that. But can 
you think of other things that need to be done on social media 
that haven't been done that would be effective?
    Ms. Milkman. Well, one thing that I advocate for--and this 
applies to all populations, but young people in particular--is, 
I've been advocating for radical convenience, so whatever we 
can do to make it feel like the lightest possible lift to get 
this vaccine. Like, you wake up, you roll out of bed, and, 
boom, it's done.
    So, college campuses bringing it to your dorm room, right? 
Your friend shows up and escorts you to the vaccine center, and 
you already have an appointment, everything's set up for you. I 
think that would help a lot with this population, and I don't 
think we've done enough of that.
    Mr. Krishnamoorthi. Thank you so much.
    I yield back.
    Chairman Clyburn. Thank you very much for your questions.
    And thanks, once again, to the panelists who are here 
today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response.
    Chairman Clyburn. This hearing is now adjourned.
    [Whereupon, at 10:35 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
